No. 20-1755

In the Supreme Court of the United States
Dean Hotop, et al.,
Petitioners,
v.
City of San Jose, California,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE OF
CALIFORNIA RENTAL HOUSING ASSOCIATION AND APARTMENT OWNERS ASSOCIATION
OF CALIFORNIA, INC. IN SUPPORT OF PETITIONERS contains 2960 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 16, 2021.
___s/Paul Beard II
FISHERBROYLES LLP
4470 W. Sunset Blvd.,
Suite 93165
Los Angeles, CA 90027
(818) 216-3988
paul.beard@fisherbroyles.com
Counsel for Amici Curiae

